D
I                                                            SINGLE AUDIT
S
C                                                            QUALITY CONTROL REVIEW
U
S
S
I
O
N              Office of Inspector General—Office of Audit
D
R
A
F
T




                                                             RECOVERY ACT: QUALITY CONTROL REVIEW
                                                             SINGLE AUDIT OF NEW MEXICO DEPARTMENT
                                                             OF WORKFORCE SOLUTIONS FOR THE YEAR
                                                             ENDED JUNE 30, 2009




                                                                                Date Issued:     March 21, 2011
02-A12-345-67-890                                                            Report Number:    18-11-002-03-001
                                                      U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                            Office of Inspector General
                                                    Washington, D.C. 20210


March 21, 2011

                                Assistant Inspector General’s Report

Donna Trujillo, Chief Financial Officer
New Mexico Department of Workforce Solutions
401 Broadway, NE
Albuquerque, NM 87102

Dear Ms. Trujillo:

The purpose of this report is to formally advise you of the results of a Quality Control
Review (QCR) the U.S. Department of Labor (DOL), Office of Inspector General (OIG)
conducted of the following audit completed by Meyners + Company, LLC (Firm) 1 , under
the Federal Single Audit Act (Act) and Office of Management and Budget (OMB)
Circular A-133 (A-133):

               Single Audit of the New Mexico Department of Workforce Solutions
                         (NMDWS) For the Year Ended June 30, 2009

Our review included the following DOL major programs:

DOL Major Programs Reviewed
                                                                                   CFDA         DOL Major
Major Program                                                                     Number            Funds
                                                                                               Reported as
                                                                                                Expended
                                                                                   17.207
Employment Services (ES) Cluster                                                   17.801
                                                                                   17.804        $7,375,456
Unemployment Insurance                                                             17.225      $388,121,799
                                                                                   17.258
Workforce Investment Act (WIA) Cluster                                             17.259
                                                                                   17.260       $15,105,719
                                                                                   17.258
American Recovery and Reinvestment Act
                                                                                   17.259
(Recovery Act) – WIA Cluster
                                                                                   17.260        $1,985,560
Total DOL Major Program Funds Reported as Expended                                             $412,588,534




1
    Effective January 1, 2011 Meyners + Company, LLC was purchased by Clifton Gunderson, LLP

                                                         1                                  Single Audit QCR
                                                                       New Mexico Dept. of Workforce Solutions
                                                                            Report Number: 18-11-002-03-001
                                            U.S. Department of Labor – Office of Inspector General


Since our review included Recovery Act funds, we are required by the Recovery Act to
post this report on our website www.oig.dol.gov and link it to the Recovery
Accountability and Transparency Board’s (Board) website www.recovery.gov.

The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

The audit work performed by the Firm over compliance with requirements applicable to
each major program and internal control over compliance in accordance with A-133 was
acceptable. However, audit work related to the Statement of Expenditures of Federal
Awards (SEFA) did not meet certain requirements of A-133. The Firm should improve
its quality control over reviewing single audit reports and provide additional training to
those responsible for ensuring single audit reports are properly presented. The Firm
should also report internal control findings to NMDWS related to identification of clusters
and subrecipients, and work with NMDWS to reissue the single audit reporting package
to the Federal Audit Clearinghouse.

A-133, Section 400(a)(5), requires us to advise the auditor, and where appropriate, the
auditee of any deficiencies found in the audits when the deficiencies require corrective
action by the auditor. When advised of deficiencies, the auditee shall work with the
auditor to take corrective action. If corrective action is not taken, we are responsible for
notifying the auditor, the auditee, and applicable Federal awarding agencies and
pass-through entities of the facts and make recommendations for follow-up action.
Major inadequacies shall be referred to appropriate State licensing agencies and
professional bodies for disciplinary action.

Details on the results of our review are provided in the Enclosure.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

Enclosure

cc: Ms. Georgie Ortiz, Partner, Clifton Gunderson, LLP.




                                              2                               Single Audit QCR
                                                         New Mexico Dept. of Workforce Solutions
                                                              Report Number: 18-11-002-03-001
                                       U.S. Department of Labor – Office of Inspector General


Ms. Judith A. Fisher, Director, Division of Policy, Review, and Resolution
Employment and Training Administration




                                         3                               Single Audit QCR
                                                    New Mexico Dept. of Workforce Solutions
                                                         Report Number: 18-11-002-03-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                   Enclosure

                       Recovery Act: Quality Control Review
        Single Audit of the New Mexico Department of Workforce Solutions
                          for the Year Ended June 30, 2009
                                  (18-11-002-03-001)

Introduction

The Single Audit Act of 1984, as amended by the Single Audit Act Amendments of
1996, created a single organization-wide financial and compliance audit for state and
local governments, colleges, universities, and not-for-profit organizations that expend
Federal funds equal to or greater than $300,000 in any fiscal year ($500,000 for fiscal
years ending after December 31, 2003).

On March 25, 2010, the Firm issued a single audit report of the NMDWS financial
statements, Schedule of Expenditures of Federal Awards (SEFA), and reports required
by Government Auditing Standards (GAS) and A-133 for the year ended June 30, 2009.

Our review included the following DOL major programs:

DOL Major Programs Reviewed
                                                               CFDA             DOL Major
Major Program                                                 Number                Funds
                                                                               Reported as
                                                                                Expended
                                                                17.207
ES Cluster                                                      17.801
                                                                17.804          $7,375,456
Unemployment Insurance                                          17.225        $388,121,799
                                                                17.258
WIA Cluster                                                     17.259
                                                                17.260          $15,105,719
                                                                17.258
Recovery Act – WIA Cluster                                      17.259
                                                                17.260          $1,985,560
Total DOL Major Program Funds Reported as Expended                            $412,588,534

Since our review included Recovery funds, we are required by the Recovery Act to post
this report on our website www.oig.dol.gov and link it to the Board’s website
www.recovery.gov.




                                            4                               Single Audit QCR
                                                       New Mexico Dept. of Workforce Solutions
                                                            Report Number: 18-11-002-03-001
                                            U.S. Department of Labor – Office of Inspector General


Objectives

The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention. To address these objectives, we answered the following question:

Did the Firm’s single audit comply with applicable standards and single audit
requirements so that no follow-up work or management’s attention would be
needed?

Results

The audit work performed by the Firm over compliance with requirements applicable to
each major program and internal control over compliance in accordance with A-133 was
acceptable. However, the audit work performed related to the SEFA did not meet
certain requirements of A-133. Specifically, the Firm did not report audit findings that
related to NMDWS not properly identifying in the SEFA DOL programs that comprised
the ES cluster of programs and the amounts passed through to subrecipients for each
federal program.

Additional work is required to bring this audit into compliance with the requirements of
the Act. Specifically, the Firm should do the following:
   1. Improve its quality control over reviewing single audit reports and provide
       additional training to those responsible for ensuring single audit reports are
       properly presented.
   2. Report internal control findings to NMDWS related to identification of clusters and
       subrecipients.
   3. Work with NMDWS to reissue the single audit reporting package to the Federal
       Audit Clearinghouse.

A-133, Section 400(a)(5), requires us to advise the auditor, and where appropriate, the
auditee of any deficiencies found in the audits when the deficiencies require corrective
action by the auditor. When advised of deficiencies, the auditee shall work with the
auditor to take corrective action. If corrective action is not taken, we are responsible for
notifying the auditor, the auditee, and applicable Federal awarding agencies and pass-
through entities of the facts and make recommendations for follow-up action. Major
inadequacies shall be referred to appropriate State licensing agencies and professional
bodies for disciplinary action.




                                              5                               Single Audit QCR
                                                         New Mexico Dept. of Workforce Solutions
                                                              Report Number: 18-11-002-03-001
                                            U.S. Department of Labor – Office of Inspector General


Did the Firm’s single audit comply with applicable standards and single audit
requirements so that no follow-up work or management’s attention would be
needed?

       The Firm’s noncompliance with certain single audit requirements could result in
       users of NMDWS’s SEFA not having reliable information needed to make
       informed decisions.

   The Firm did not report audit findings related to NMDWS not complying with
   reporting requirements to prepare the SEFA in the format required by A-133.

DOL programs related to ES should have been presented in the SEFA as a cluster, but
instead the programs were reported individually.

A-133, Subpart C – Auditee Responsibilities, Section .310 (b), Financial Statements,
Schedule of Expenditures of Federal Awards, states, in part:

       … At a minimum, the schedule shall 1) List individual Federal programs by
       Federal agency. For Federal programs included in a cluster of programs,
       list individual Federal programs within a cluster of programs.

The AICPA Audit Guide, Government Auditing Standards, and Circular A-133 Audits
(Guide) states in Chapter 7.05:

       The SEFA is unlike certain other supplementary information included in
       documents containing audited financial statements in that it serves as the
       primary basis for the auditor’s major program determination …Therefore,
       appropriate major program determination by the auditor is dependent on
       the accuracy and completeness of the information that makes up the
       SEFA.

Firm officials told us they were aware of the cluster reporting requirement and had
audited the three ES programs as major programs. They attributed the reporting error to
a grantee editing problem that was not caught by the Firm’s quality control process. Our
review of the 2007 and 2008 single audit reports found that NMDWS had the same
reporting error. Therefore, we believe the reporting error with the ES cluster is the result
of a systemic problem within NMDWS as well as a weakness in the Firm’s quality
control process.

When Federal programs are not properly presented as a cluster, auditors might not
identify and audit all major program expenditures. In addition, this does not provide for a
uniform audit report presentation, which may prevent users from effectively using the
data contained in the audit report.




                                              6                               Single Audit QCR
                                                         New Mexico Dept. of Workforce Solutions
                                                              Report Number: 18-11-002-03-001
                                           U.S. Department of Labor – Office of Inspector General


Amounts paid to subrecipients from each federal program were not identified in the
SEFA.

A-133, Subpart C – Financial statements, Section .310(b)(5), states, in part:

       … At a minimum, the schedule should: … For federal awards received as
       a pass-through entity, identify, to the extent practical, the total amount
       provided to subrecipients from each federal program.

The Firm stated it did not believe it was practical to provide subrecipient information in
the SEFA. It further noted that amounts reported as subrecipient expenditures in the
footnote to the SEFA would not tie to the amount of program expenditures in the SEFA
and would be confusing to the State auditor review team.

By NMDWS not providing required subrecipient information, users of the SEFA would
not have sufficient information to judge how NMDWS accomplished its mission of
providing training to unemployed or underemployed New Mexicans. This lack of
subrecipient information could also result in the auditor not including the OMB
compliance requirement for NMDWS to monitor WIA funds passed through to
subrecipients as part of its compliance audit plan. Finally, the use of Recovery Act funds
would not have the required transparency for those funds.


Recommendations

We recommend the Firm:

1. Provide additional training in relevant A-133 and Guide requirements and overall
   report quality control processes to Firm supervisory and management personnel
   responsible for audits related to entities required to report under the Act.

2. Follow GAS 5.26 through 5.31 related to subsequent discovery of facts existing at
   the date of the auditor’s report to ensure users of NMDWS’s single audit reporting
   package are aware of the reporting errors. This would include reporting the
   appropriate findings noted in this report.

3. Submit a revised reporting package to the Federal Audit Clearinghouse.


We appreciate the cooperation and courtesies that Firm personnel extended to the
Office of Inspector General.




                                             7                               Single Audit QCR
                                                        New Mexico Dept. of Workforce Solutions
                                                             Report Number: 18-11-002-03-001
                                        U.S. Department of Labor – Office of Inspector General


Firm’s Response

The firm agreed with the recommendations and provided its plans to address each of
them.




                                          8                               Single Audit QCR
                                                     New Mexico Dept. of Workforce Solutions
                                                          Report Number: 18-11-002-03-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




               9                               Single Audit QCR
                          New Mexico Dept. of Workforce Solutions
                               Report Number: 18-11-002-03-001
             U.S. Department of Labor – Office of Inspector General




Appendices




               10                              Single Audit QCR
                          New Mexico Dept. of Workforce Solutions
                               Report Number: 18-11-002-03-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




               11                              Single Audit QCR
                          New Mexico Dept. of Workforce Solutions
                               Report Number: 18-11-002-03-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

The Single Audit Act of 1984 established consistent and uniform entity-wide audit
requirements for state and local governments receiving Federal financial assistance.
The single audit is the primary mechanism used by Federal agencies to ensure
accountability for Federal awards. Audits performed under the Act are intended to
satisfy all Federal agencies providing assistance to the entity. The act was amended in
1996 by Public Law 104-156, raising the threshold for single audit to $300,000 in
Federal assistance. The June 27, 2003, revision to A-133 raised this threshold to
$500,000 for fiscal years ending after December 31, 2003.

QCRs are performed to provide evidence of the reliability of single audits to the auditors
of Federal agency financial statements, such as those required by the Chief Financial
Officers Act, those responsible for the programs, and others. We performed a QCR of
the single audit of the NMDWS financial statements, SEFA, and reports required by
GAS and A-133 for the year ended June 30, 2009, performed by the Firm.

The legislature of the State of New Mexico passed legislation to improve the
effectiveness of the workforce service and delivery system. The bill combined all
functions and staff of the Governor’s Office of Workforce Training & Development with
all functions and staff of the New Mexico Department of Labor and created a new
government agency called NMDWS. All Office of Workforce Training & Development
and New Mexico Department of Labor employees began working for this new
department effective July 1, 2007.

NMDWS’s mission is to enhance productivity and competitiveness of New Mexico
business and industry by improving the quality and availability of the New Mexico
workforce. To accomplish this, NMDWS uses a system that offers universal access to
lifelong learning based on relevant local and regional labor market needs, via
integrated, customer-focused accountable service partnerships; and promotes
charitable and educational services by providing special services to disadvantaged,
untrained, displaced, and under-trained workers within the State of New Mexico.

For the year ended June 30, 2009, the NMDWS reported expenditures of about
$415.9 million in total Federal awards and $415.8 million in DOL awards, of which $2.0
million was reported as attributable to the Recovery Act

The Recovery Act was signed into law on February 17, 2009. The stated purposes of
the Recovery Act are to:

   •   preserve and create jobs and promote economic recovery;
   •   assist those most impacted by the recession;
   •   provide investments needed to increase economic efficiency by spurring
       technological advances in science and health;


                                             12                              Single Audit QCR
                                                        New Mexico Dept. of Workforce Solutions
                                                             Report Number: 18-11-002-03-001
                                           U.S. Department of Labor – Office of Inspector General


   •   invest in transportation, environmental protection, and other infrastructure that
       will provide long-term economic benefits; and
   •   stabilize state and local government budgets, in order to minimize and avoid
       reductions in essential services and counterproductive state and local tax
       increases.

The Recovery Act requires agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how their tax
dollars are being spent. The Board was established by the Recovery Act, Congress,
and the OMB to oversee and monitor implementation of the Recovery Act through
periodic reporting on the use and expenditure of funds. We are required by the
Recovery Act, Title XV Accountability and Transparency, Subtitle A – Transparency and
Oversight Requirements, Section 1514 Inspector General Reviews, to post this report
on our website www.oig.dol.gov and link it to the Board’s website www.recovery.gov.




                                             13                              Single Audit QCR
                                                        New Mexico Dept. of Workforce Solutions
                                                             Report Number: 18-11-002-03-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our objectives were to determine whether:

   1. The audit was conducted in accordance with applicable standards and met the
      single audit requirements;
   2. any follow-up work is needed; and
   3. there are any issues that may require management’s attention.

To answer those objectives we asked the following question:

   Did the Firm’s single audit comply with applicable standards and single audit
   requirements so that no follow-up work or management’s attention would be
   needed?

Scope

We performed a QCR of the Firm’s single audit of the NMDWS Financial Statements,
SEFA, and reports required by GAS and A-133 for Year Ended June 30, 2009. As part
of the QCR, we included review of the single audit reports issued by NMDWS and the
Firm for the years ended June 30, 2007 and 2008. We performed our work at the offices
of the Firm at 500 Marquette, Suite 800, Albuquerque, New Mexico.

Our review included the following DOL major programs:

DOL Major Programs Reviewed
                                                               CFDA           DOL Major
Major Program                                                 Number              Funds
                                                                             Reported as
                                                                              Expended
                                                                17.207
ES Cluster                                                      17.801
                                                                17.804        $7,375,456
Unemployment Insurance                                          17.225      $388,121,799
                                                                17.258
WIA Cluster                                                     17.259
                                                                17.260        $15,105,719
                                                                17.258
Recovery Act – WIA Cluster                                      17.259
                                                                17.260         $1,985,560
Total DOL Major Program Funds Reported as Expended
                                                                            $412,588,534

                                            14                              Single Audit QCR
                                                       New Mexico Dept. of Workforce Solutions
                                                            Report Number: 18-11-002-03-001
                                          U.S. Department of Labor – Office of Inspector General




Methodology

Using the President’s Council on Integrity and Efficiency Uniform QCR Guide for A-133
Audits, we reviewed audit documentation and held discussions with the Firm’s partners
and auditors to accomplish the required steps. The Guide was developed to test for
compliance with GAS general and fieldwork standards and A-133 requirements.

Specifically, we reviewed:

   •    Auditor Qualifications
   •    Independence
   •    Due Professional Care
   •    Quality Control
   •    Planning and Supervision
   •    Management Representations
   •    Litigation, Claims and Assessments
   •    Possible Fraud or Illegal Acts
   •    Determination of Major Programs
   •    Schedule of Expenditures of Federal Awards
   •    Audit Follow up
   •    Reporting
   •    Internal Control Over Major Programs
   •    Data-Collection Form

We also reviewed the Firm’s peer review applicable to the period of the audit, as well as
the single audit reports issued by NMDWS and the Firm for the years ended June 30,
2007 and 2008 to identify systemic issues.

Criteria

A-133

AICPA Audit Guide, Government Auditing Standards and Circular A-133 Audits

GAS, July 2007 Revision

Guidance on Generally Accepted Government Auditing Standards Requirements for
Continuing Professional Education

Recovery Act

Single Audit Act of 1984

Single Audit Act Amendments of 1996

                                            15                              Single Audit QCR
                                                       New Mexico Dept. of Workforce Solutions
                                                            Report Number: 18-11-002-03-001
                                       U.S. Department of Labor – Office of Inspector General


                                                                              Appendix C
Acronyms and Abbreviations

  A-133          Office of Management and Budget Circular A-133

  Act            Federal Single Audit Act

  AICPA          American Institute of Certified Public Accountants

  Board          Recovery Accountability and Transparency Board

  Guide          American Institute of Certified Public Accountants Audit Guide,
                 GAS, and A-133 Audits

  CFDA           Catalog of Federal Domestic Assistance

  DOL            Department of Labor

  ES             Employment Services

  Firm           Meyners + Company, LLC

  GAS            Government Auditing Standards

  OIG            Office of Inspector General

  OMB            Office of Management and Budget

  QCR            Quality Control Review

  Recovery Act   American Recovery and Reinvestment Act

  SEFA           Schedule of Expenditures of Federal Awards

  NMDWS          New Mexico Department of Workforce Solutions

  WIA            Workforce Investment Act




                                          16                             Single Audit QCR
                                                    New Mexico Dept. of Workforce Solutions
                                                         Report Number: 18-11-002-03-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




               17                              Single Audit QCR
                          New Mexico Dept. of Workforce Solutions
                               Report Number: 18-11-002-03-001
                                    U.S. Department of Labor – Office of Inspector General


                                                                           Appendix D
Independent Public Accountant Response to Draft Report




                                      18                              Single Audit QCR
                                                 New Mexico Dept. of Workforce Solutions
                                                      Report Number: 18-11-002-03-001
